'/

NO. 20-

3ht tl)t

Supreme Court of tfje Mntteb States;

EMMANUEL EDOKOBI,
Petitioner,

FILED

V.
OFFICE OF THE CLERK
SUPREME COURT. U.S'.

JUDGE PAUL W. GRIMM,
Respondent:
On Petition for a Writ of Certiorari to the «
United States Court of Appeals for the Fourth Circuit
PETITION FOR A WRIT OF CERTIORARI

Emmanuel Edokobi
Petitioner Pro Se
2005 Stratton Drive
Potomac, MD 20854
(301) 793-2882
EEDOKOBI@YAHOO.COM

May 21, 2021
SUPREME COURT PRESS

♦

(888) 958-5705

♦

Boston, Massachusetts

RECEIVED
may 2 5 2021
SUPlREEMEfCTolfRTLl^RQK

1

QUESTIONS PRESENTED
When Reviewing a District Court’s ruling to dis­
miss a civil case against Respondent Judge Paul W.
Grimm should the Court of Appeals dishonor its own
Unpublished Opinion Entered on March 3, 3015 In
the previous civil case that, involves Respondent
Judge Paul W. Grimm’s LETTER ORDER Entered
on December 3, 2014.
The Questions Presented Are:
1. Whether the Fourth Circuit erred when, it
dismissed Petitioner’s appeal in dishonor to its own
Unpublished Opinion Entered on March 3, 3015
regarding Respondent Judge Paul W. Grimm’s
LETTER ORDER Entered on December 3, 2014 for
the proposed imposition of pre-filing injunction against
Petitioner.
2. Whether the Fourth Circuit erred when, it
dismissed Petitioner’s appeal without considering
Respondent Judge Paul W. Grimm’s blatant violation
of due process clause regarding Respondent Judge
Paul W. Grimm’s Refusal to Complete His LETTER
ORDER Entered on December 3, 2014 for the pro­
posed imposition of pre-filing injunction against
Petitioner.
3. Whether the Fourth Circuit erred when, it
dismissed Petitioner’s appeal without considering
Respondent Judge Paul W. Grimm’s blatant abuse of
discretion regarding Judge Paul Grimm Refusal to
Complete His LETTER ORDER Entered on Decem­
ber 3, 2014 for the proposed imposition of pre-filing
injunction against Petitioner.

11

4. Whether the Fourth Circuit erred when, it
dismissed Petitioner’s appeal without considering Res­
pondent Judge Paul W. Grimm’s blatant disobedience
to the Fourth Circuit Court’s Unpublished Opinion
Entered on March 3, 3015 regarding Respondent
Judge Paul W. Grimm’s LETTER ORDER Entered
on December 3, 3014 for the proposed imposition of
pre-filing injunction against Petitioner.
5. Whether the Fourth Circuit erred when, it
dismissed Petitioner’s appeal without considering
Respondent Judge Paul W. Grimm’s blatant abuse of
discretion regarding Judge Paul Grimm Refusal to
Rescue himself from hearing Petitioner’s Civil Case
No. 8:19-Cv-00248-PWG And Civil Case No. 8:19-CV01071-PWG.

Ill

LIST OF PROCEEDINGS
2019-2021 PROCEEDINGS
United States Court of Appeals for the Fourth Circuit
No. 20-1271
Emmanuel Edokobi Plaintiff-Appellant v. Judge Paul
W. Grimm, Defendants-Appellee
Date of Final Opinion: February 25, 2021
United States District Court for the District of
Maryland Southern Division
No. GJH-19-905
Emmanuel Edokobi Plaintiff v. Judge Paul W.
Grimm, in his individual and official capacities
Defendant
Date of Final Opinion: March 4, 2020
Date of Final Order: March 5, 2020
2014-2015 PROCEEDINGS
United States Court of Appeals for the Fourth Circuit
No. 14-2204
Emmanuel Edokobi Plaintiff-Appellant v. M&M
Mortgage Services, Inc.; Juan Gonzalez; Mortgage
Specialist, Inc., Defendants-Appellees
Date of Final Opinion: March 19, 2015

IV

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED.................... ............

i

LIST OF PROCEEDINGS....................................

in

TABLE OF AUTHORITIES.... ............................

IX

PETITION FOR WRIT OF CERTIORARI.........

1

OPINIONS BELOW.................................... .

1

JURISDICTION............. .................................. .

1

CONSTITUTIONAL PROVISIONS INVOLVED...... 2
INTRODUCTION.... ................................. ........

3

STATEMENT OF THE CASE.........................

7

REASONS FOR GRANTING THE PETITION...... 16
I.

The Petition for Writ of Certiorari
Should Be Granted Because This Case Is
in Conflict With the U.S. Fourth
Circuit Unpublished Opinion Entered
on March 3, 3015 Regarding Respond­
ent Judge Paul W. Grimm’s Letter
Order Entered on December 3, 2014
for the Proposed Imposition of PreFiling Injunction Against Petitioner ....... 16

II. The Petition for Writ of Certiorari
Should Be Granted Because This Case
Contains a Violation of Fourteenth
Amendment Due Process Clause and
That 4th Circuit Dismissal of This Case
Increasingly Undermines This Court’s
Due Process Clause’ Jurisprudence on
Fourteenth Amendment Due Process
Clause
19

V

TABLE OF CONTENTS - Continued
Page
III. The Petition for Writ of Certiorari
Should Be Granted Because This Case
Contains a Violation of Fourteenth
Amendment Due Process Clause Viola­
tion of (42 U.S.C. § 1983) by Acting Under
Color of Law to Deprive Petitioner’s
Eighth Amendment Clause of Protec­
tions............ ................... ................................ 21
IV. The Petition for Writ of Certiorari
Should Be Granted Because This Case
Contains a Violation of Fourteenth
Amendment Due Process Clause Viola­
tion of (42 U.S.C. § 1983) By Acting Under
Color of Law to Deprive Petitioner’s
Equal Protection Clause.... .............. ....... 25
V. The Petition for Writ of Certiorari
Should Be Granted Because This Case
Contains an Abuse of Discretion in
Respondent Judge Paul W. Grimm’s
Refusal to Complete His Letter Order
Entered on December 3,2014................. . 27
VI. The Petition for Writ of Certiorari
Should Be Granted Because This Case
Involves Judicial Disability Act of 1980,
28 U.S.C. §§ 351-364 (“ACT”) COMPLAINT
Against Respondent Judge Paul W. Grimm. . 30
VII.The Petition for Writ of Certiorari
Should Be Granted Because This Case
Involves Jurisdiction Issues
33

VI

TABLE OF CONTENTS - Continued
Page
VIII. The Petition for Writ of Certiorari
Should Be Granted Because This Case
Involves Judicial Immunity Issues ........ 34
CONCLUSION

37

Vll

TABLE OF CONTENTS - Continued
Page
APPENDIX TABLE OF CONTENTS
Opinions and Orders
in the 2019-2021 Proceedings
Opinion of the United States Court of Appeals for
the Fourth Circuit (February 25, 2021)............ la
Memorandum Opinion of the United States
District Court for the District of Maryland
(March 4, 2020).......... ............................................ 3a
Order of the United States District Court for the
District of Maryland (March 5, 2020).......... . 29a
Letter Order of the United States District Court
for the District of Maryland (April 15, 2019).. 31a
Letter Order of the United States District Court
for the District of Maryland Motion to
Remove Judge Paul Grimm (April 9, 2019) .... 35a
Other Documents
Proceedings

in the 2019-2021

Informal Briefing on United States Court of
Appeals for the Fourth Circuit
(April 28, 2020)............. ........................... ............ 37a
Plaintiff Emmanuel Edokobi By Himself as a
Pro Se (“Plaintiff’) Files a Motion for the
Removal of Judge Paul W. Grimm from
Hearing Civil Case 8:19-CV-00248-PWG
Edokobi v. Toyota Motor Credit Corporation et
al Pursuant to Disability Act of 1980, 28 U.S.C.
§§ 351-364 (“Act”), and Rules for JudicialConduct and Judicial-Disability
Proceedings, 248 F.R.D. 674 (2008)
(April 5, 2019)........... ............................................ 67a

Vlll

TABLE OF CONTENTS - Continued
Page
Civil Action Complaint Against Judge Paul W.
Grimm United States District Judge
(February 25, 2019)............................. ................ 71a
Opinions and Orders
in the 2014-2015 Proceedings
Opinion of the United States Court of Appeals for
the Fourth Circuit (March 19, 2015)............. . 93a
Letter Order of the United States District Court
for the District of Maryland
(December 3, 2014)............................................... 95a
Other Documents
in the 2014-2015 Proceedings
Defendants’ M&M Mortgage Services Inc. and
Juan Gonzalez, Motion for Sanctions
(June 9, 2016)............. ....................................
97 a
Plaintiff files Opposition Motion to Defendants’
M&M Mortgage Services Inc., and Juan
Gonzalez Motion for Sanctions
(June 23, 2014)
101a
Defendants’ M&M Mortgage Services Inc. and
Juan Gonzalez, Reply to Plaintiffs Opposition
to Defendant’s Motion to Dismiss the
Plaintiffs Complaint (May 1, 2014)
116a

IX

TABLE OF AUTHORITIES
Page
CASES
Alvarez Lagos v. Barr,
927 F.3d 236 (4th Cir. 2019)..................

28

Booth v. Wal-Mart Stores, Inc.,
201 F.3d 335 (4th Cir. 2000).............. ....

29

Cancellier v. Federated Dep’t Stores,
672 F.2d 1312 (9th Cir. 1982)................

28

Centro Tepeyac v. Montgomery Cty.,
722 F.3d 184 (4th Cir. 2013).................

29, 30

Duncan v. Missouri,
152 U.S. 377, 14 S.Ct. 570 (1894)........

21

Edokobi v. M & MMortg.
Servs., Inc., No. 8:13-cv-03707-PWG
(D.Md. Oct. 22, 2014).... ........ .................

passim

Fusaro v. Cogan,

930 F.3d 241 (4th Cir. 2019).............

30

Giozzav. Tieman,
148 U.S. 657,13 S.Ct.721 (1893)............

21

Gonzales v. O Centro Espirita Beneficente
Uniao do Vegetal, 546 U.S. 418 (2006)

29

Gotthardt v. Nat’lR.R. Passenger Corp.,
191 F.3d 1148 (9th Cir.1999).................

28

Griggs v. Provident Discount Co.,
459 U.S. 56 (1982)...................................

6

Henderson ex rel. NLRB v. Bluefield Hosp. Co.,
902 F.3d 432 (4th Cir. 2018)..................... .

29

Hobby Lobby Stores, Inc. v. Sebelius,
723 F.3d 1114 (10th Cir. 2013)....................

29

X

TABLE OF AUTHORITIES - Continued
Page
Inti Jensen, Inc. v. Microsound U.S.A., Inc.,
4 F.3d 819 (9th Cir. 1993)......................... .

28

Koon v. United States,
518 U.S. 81 (1996)........ .................................

28

Leeper v. Texas,
139 U.S. 462, 11 S.Ct. 577 (1891)................

21

Minneapolis & S.L.R. Co. v. Herrick,
127 U.S. 210, 8 S.Ct. 1176 (1888)...................

21

Missouri P. R. Co. v. Mackey,
127 U.S. 205, 32 L.Ed 107,
8 S.Ct. 1161 (1888) ......... ......................... .

21

Mullane v. Central Hanover Trust Co.,
339 U.S. 306 (1950)......................................

19

Pashby v. Delia,
709 F.3d 307 (4th Cir.2013).............. ............

28

Pennoyer v. Neff,
95 U.S. 714 (1878)........ .............................

19

Quince Orchard Valley Citizens Ass’n
v. Hodel, 872 F.2d 75 (4th Cir. 1989)......... 29, 30
Rabkin v. Oregon Health Sciences Univ.,
350 F.3d 967 (9th Cir. 2003)................. .......

28

Ray Haluch Gravel Co. v. Cent. Pension Fund of
the Inti Union of Operating Eng’rs &
Participating Emp’rs, 134 S.Ct. 773 (2014).. 15, 17
United States v. Washington,
157 F.3d 630 (9th Cir. 1998)

28

XI

TABLE OF AUTHORITIES - Continued
Page
Wolff v. McDonnell,
418 U.S. 539, L.Ed.2d 935,
94 S.Ct. 2963 (1974).........

21

CONSTITUTIONAL PROVISIONS
U.S. Const, amend. V....

2, 3

U.S. Const, amend. VII..,

passim

U.S. Const, amend. XIV

passim

STATUTES
28 U.S.C. § 1254 (1)..

1

28 U.S.C. §§ 351-364

30

42 U.S.C. § 1983........

passim

JUDICIAL RULES
Fed. R. App. P. 41.1

11, 16, 17, 18

1

m
PETITION FOR WRIT OF CERTIORARI
Petitioner Emmanuel Edokobi respectfully petition
for writ of certiorari to review the judgment of the
United States Court of Appeals for the Fourth Circuit.

OPINIONS BELOW
The Fourth Circuit’s unpublished per curiam opin­
ion to dismiss Petitioner’s Appeal entered on February
25, 2021 is included in the Appendix (“App.”) at la.
The United States District Court Judge George J.
Hazel’s Memorandum Opinion Ruling in Granting
Judge Paul W. Grimm’s Motion for Summary Judgment
entered March 5, 2020 is included at App.29a.
The United States District Court Judge George
J. Hazel’s Order in Denying Petitioner’ Motion for
Removal of Judge Grimm entered March 4, 2020 is
included at App.3a.

JURISDICTION
This Court has jurisdiction over this case under
28 U.S.C. § 1254(l). The Fourth Circuit issued its un­
published per curiam opinion and judgment entered
on February 25, 2021. (App.la)

2

CONSTITUTIONAL PROVISIONS INVOLVED
U.S. Const., amend. V
The DUE PROCESS CLAUSE of the Fifth Amend­
ment asserts that no person shall “be deprived of life,
liberty, or property, without due process of law”.
In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by an
impartial jury of the state and district wherein
the crime shall have been committed, which
district shall have been previously ascertained
by law, and to be informed of the nature and
cause of the accusation; to be confronted with
the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and
to have the assistance of counsel for his defense.
U.S. Const., amend. VIII
Excessive bail shall not be required, nor excessive
fines imposed, nor cruel and unusual punishments
inflicted.
U.S. Const., amend. XIV
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of
the United States or other person within the juris­
diction thereof to the deprivation of any rights,
privileges, or immunities secured by the Consti­
tution and laws, shall be liable to the party

3

injured in an action at law, suit in equity, or
other proper proceeding for redress, except that
in any action brought against a judicial officer
for an act or omission taken in such officer’s
judicial capacity, injunctive relief shall not be
granted unless a declaratory decree was violated
or declaratory relief was-unavailable.

INTRODUCTION
Petitioner asserts that on December 3, 2014
Respondent Judge Paul W. Grimm issued a LETTER
ORDER of imposition of pre-filing injunction against
Petitioner “LETTER ORDER” Entered on December
3, 2014 for Civil Action Re: Edokobi v. M & MMortgage
Services Inc., (ECF No. 15) of the Civil Case 8:13-cv03707-PWG with the United States Court of Appeals
for the Fourth Circuit Appeal No. 14-2204. A true and
accurate copy of Respondent Judge Paul W. Grimm’s
LETTER ORDER of imposition of pre-filing injunc­
tion against Petitioner is herein Marked Petitioner’s
Exhibit Number 1.
Petitioner asserts that, this civil action was filed
under 42 U.S.C. 1983 and 8th Amendment Act and
under due process and equal protection clauses of
5th and 14th Amendments to the United States con­
stitutions against Respondent Judge Paul W. Grimm
because Respondent Judge Grimm Has Refused to
Issue a Final Order on the Proposed Imposition of
Pre-Filing Injunction Against Petitioner as contained
in Respondent Judge Paul W. Grimm’s LETTER
ORDER Entered on December 3, 2014 in (ECF No. 15)

4

of the Civil Case 8:13-cv-03707-PWG. {See Exhibit
No. 1).
Petitioner asserts that, this civil action was filed
under § 1 of The Civil Rights Act of 1871, as amended,
42 U.S.C. § 1983, against Respondent Judge Paul W.
Grimm for committing acts, under color of law, with
the intent and for the purpose of depriving Petitioner
of his rights secured under the constitution and laws
of the United States of America by Respondent Judge
Paul W. Grimm’s Refusal to Issue a Final Order on
the Proposed Imposition of Pre-Filing Injunction
Against Petitioner as contained in the Judge Paul W.
Grimm’s LETTER ORDER Entered on December 3,
2014 in (ECF No. 15) of the Civil Case 8:13-cv-03707PWG. {See Exhibit Number l).
Petitioner asserts that, this civil action is a civil
rights case which involves seeking redress for the
violation of a person’s constitutional rights. This type
of claim is often brought under the Federal Statute,
42 U.S.C. § 1983. Under this law, a person who acts
under color of state law to violate another’s constitu­
tional rights may be liable for damages.
Petitioner asserts that, Respondent Judge Paul
W. Grimm acted under color of law to violate
Petitioner’s constitutional rights by Respondent Judge
Paul W. Grimm’s Refusal to Issue a Final Order on
the Proposed Imposition of Pre-Filing Injunction
Against Petitioner as contained in the Judge Paul W.
Grimm’s LETTER ORDER Entered on December 3,
2014 in (ECF No. 15) of the Civil Case 8:13-cv-03707PWG. {See Exhibit Number l).
Petitioner asserts that, this civil action was filed to
address Respondent Judge Paul W. Grimm’s violation

5

of the Eighth Amendment by Inflicting Cruel and
Unusual Punishments Upon Petitioner with the
Respondent Judge Paul W. Grimm’s LETTER ORDER
which Respondent Judge Paul W. Grimm has Refused
to Issue a Final Order on the Proposed Imposition of
Pre-Filing Injunction Against Petitioner as contained
in the Judge Paul W. Grimm’s LETTER ORDER
Entered on December 3, 2014 in (ECF No. 15) of the
Civil Case 8:13-cv-03707-PWG. {See Exhibit Number l).
Petitioner asserts that, this Civil Action was filed
On February 25, 2019 against Respondent Judge
Paul W. Grimm because, Respondent Judge Paul W.
Grimm’s action of failure to complete his LETTER
ORDER Entered since December 3, 2014, was com­
mitted under color of law with the intent and for the
purpose of depriving Petitioner’s constitutional right
to Fifth Amendment (Amendment V) to the United
States Constitution, which is part of the Bill of Rights,
Ratified In 1791 and that Respondent Judge Paul W.
Grimm has continued to Refuse to Provide Final Order
on the Proposed Imposition of Pre-Filing Injunction
Against Petitioner as contained in the Judge Paul W.
Grimm’s LETTER ORDER Entered on December 3,
2014 in (ECF No. 15) of the Civil Case 8:13-cv-03707PWG.
The Judge Grimm’s LETTER ORDER Provides
Hereunder As Follows:

6

December 3, 2014
RE: Edokobi v. M & MMortgage Services Inc.
PWG-13-3707
LETTER ORDER
1. “With regard to my October 22, 2014 dismissal
of Plaintiff Emmanuel Edokobi’s claims with
prejudice and denial of Plaintiffs Motion to Enter
Default Judgment as moot, ECF No. 19, Plaintiff
has filed an “Opposition Motion to Court Order
Granting Defendants’ Motion to Dismiss Plaintiffs
Complaint and Opposition to Court Proposed
Imposition of Pre-Filing Injunction and Opposi­
tion to Court Order Dismissing Plaintiffs Motion
for Default Judgment Against MSI,” and sought
“New Trial of Civil Action No. 8:13-CV-03707PWG.” ECF No. 22. Plaintiff also filed a Notice
of Appeal of the October 22, 2014 Order to the
Fourth Circuit. ECF No. 20. Insofar as Plaintiff
asks me to reconsider the October 22. 2014 Order.
Plaintiffs Notice of Appeal divested this Court of
jurisdiction to consider his motion. See Griggs v.
Provident Discount Co., 459 U S. 56, 58 (1982);
Panowicz v. Hancock, No. DKC-11-2417, 2013 WL
5442959, at *2 (D. Md. Sept. 27, 2013) (citing
Griggs). Additionally, I will not take further action
regarding the pre-filing injunction until the Fourth
Circuit has issued its ruling”. {See Edokobi v. M
& MMortg. Servs., Inc., No. 8:13-cv-03707-PWG
(D. Md. Oct. 22, 2014)).
/si Paul W; Grimm
United States District Judge

7

STATEMENT OF THE CASE
Petitioner asserts that on December 3, 2014
Respondent Judge Paul W. Grimm issued a LETTER
ORDER of Imposition of Pre-Filing Injunction Against
Petitioner “LETTER ORDER” Entered on December
3, 2014 in the Civil Action RE: Edokobi v. M & M
Mortgage Services Inc., (ECF No. 15) of the Civil Case
8:13-cv-03707-PWG with the United States Court of
Appeals for the Fourth Circuit Appeal No. 14-2204.
{See Petitioner’s Exhibit Number l).
Petitioner asserts that on February 25, 2019
Petitioner filed a Civil Case Number 463628V against
Respondent Judge Paul W. Grimm at the Circuit Court
for Montgomery County Maryland Because Respondent
Judge Paul W. Grimm’s Failure to Complete His
LETTER ORDER which Respondent Judge Paul W.
Grimm Issued on December 3, 2014. A true and
accurate copy of Petitioner’s Bill Complaint filed against
Respondent Judge Paul W. Grimm on February 25,
2019 is herein Marked Petitioner’s Exhibit Number 2.
Petitioner asserts that on March 27, 2019
Petitioner’s Civil Case Number 463628V was removed
from the Circuit Court for Montgomery County
Maryland by Respondent Judge Paul W. Grimm to
the United States District for the District of Maryland
at Greenbelt and the Civil Case was given a different
Case Number Civil Case No. 8:19-cv-00905-GJH and
the Civil Case was assigned to Honorable Judge George
Jarrod Hazel.
Petitioner asserts that, on March 4, 2020
Honorable Judge George Jarrod Hazel by his Memo-

8

randum Opinion Granted Respondent Judge Paul W.
Grimm’s Motion to Dismiss Petitioner’s Civil Case
Against Respondent Judge Paul W. Grimm. A true
and accurate copy of Honorable Judge George Jarrod
Hazel’s Memorandum Opinion Entered On March 4,
2020 is herein Marked Petitioner’s Exhibit Number 3.
Petitioner asserts that on appeal Petitioner argues
that Honorable Judge George Jarrod Hazel’s Memo­
randum Opinion contains Twenty-two (22) pages and
that; Honorable Judge George Jarrod Hazel did not
provide reason or reasons for Respondent Judge Paul
W. Grimm’s Refusal to Complete His LETTER ORDER
Entered on December 3, 2014. A true and accurate
copy of Petitioner’s Appeal at the Fourth Circuit with
Appeal No. 20-1271 is herein Marked Petitioner’s Ex­
hibit Number 4.
Petitioner asserts that on appeal Petitioner argues
that; U.S. District Court erred in granting Honorable
Paul W. Grimm’s Motion to Dismiss, ECF No. 12; for
Civil Case Emmanuel Edokobi v. Paul Grimm,
8:19-cv-00905, because; U.S. District Court Provided
Twenty-Two (22) pages of Memorandum Opinion in
the Closure of; Civil Case Emmanuel Edokobi v. Paul
Grimm, 8:19-cv-00905-GJH; without providing any
information on Respondent Judge Grimm’s reason or
reasons for Respondent Judge Grimm’s Refusal to
Complete His LETTER ORDER ECF No. 25; with
Appeal No. 14-2204; Civil Case No. 8:13-cv-03707PWG; Edokobi v. M & M Mortgage Services Inc.,
Juan Gonzalez; Mortgage Specialist, Inc., “LETTER
ORDER” was Entered on December 3, 2014; and It
Has Lasted Five (5) Years. (See Petitioner’s Exhibit
Number 4.)

9

Petitioner asserts that on March 4, 2020 Honorable
Judge George Jarrod Hazel by his order granted
Respondent Judge Paul W. Grimm’s Motion to Deny
Petitioner’s Motion to Remove Petitioner’s Civil Case
No. 8:19-Cv-00248-PWG and Civil Case No. 8:19-CV01071-PWG from Respondent Judge Paul W. Grimm.
A true and accurate copy of Honorable Judge George
Jarrod Hazel Order is herein Marked Petitioner’s Ex­
hibit Number 5.
Petitioner asserts that on Appeal Petitioner
argues that; the U.S. District Court erred in denying
appellant’s Motion for the Removal of the Civil Case
No. 8:19-cv-00248-PWG; Appeal; No. 20-1243; Edokobi
v. Toyota Motor Credit Corporation et ai, and Civil
Case No. 8:19-cv-01071-PWG; Appeal No. 20-1271 from
Respondent Paul W. Grimm, because; Honorable
Judge Paul W. Grimm was judicially disabled to hear
those civil cases, due to; Petitioner’s Civil Action against
Honorable Judge Paul W. Grimm; Emmanuel Edokobi
v. Paul Grimm.
Petitioner asserts that on appeal Petitioner argues
that; U.S. District Court erred in denying Appellant’s
Motion for the Removal of the Civil Case No* 8:19-cv00248-PWG; Appeal; No. 20-1243; Edokobi v. Toyota
Motor Credit Corporation et al\ And Civil Case No.
8:19-cv-01071-PWG; Appeal No. 20-1271; from Respon­
dent Paul W. Grimm, because; Respondent Judge Paul
W. Grimm was judicially disabled to hear these Civil
Cases, because; Honorable Judge Paul W. Grimm
Could Not in Good Conscience Provide an Unbiased
Decision in the Civil Case No. 8:19-cv-00248-PWG:
Edokobi v. Toyota Motor Credit Corporation et al\
and Civil Case No. 8:19-cv-01071-PWG: Appeal No.
20-1271; due to Petitioner’s Civil Action against Respon-

10
dent Judge Paul W. Grimm with Civil Case No. 8:19cv-00905-GJH; Emmanuel Edokobi v. Paul Grimm A
true and accurate copy of Petitioner’s Motion to
Remove Edokobi v. Toyota Motor Credit Corporation
et at, And Civil Case No. 8:19-cv-01071-PWG; Appeal
No. 20-1796, Emmanuel Edokobi v. SunTrust Bank,
et al From Respondent Paul W. Grimm is herein
Marked Petitioner’s Exhibit Number 6. Petitioner
asserts that on February 25, 2021 the United States
Court of Appeals for the Fourth Circuit by its unpub­
lished opinion affirmed the District Court’s Order
denying Petitioner’s Motion for Recusal and Granting
Respondent’s Motion to Dismiss Petitioner’s Civil Ac­
tion, Edokobi v. Grimm, No. 8:19-cv-00905-GJH With
No. 20-1271. A true and accurate copy of Unpublished
Opinion of the United States Court of Appeals for the
Fourth Circuit Unpublished Opinion for Appeal 201271 Entered on February 25, 2021 is herein Marked
Petitioner’s Exhibit Number 7.
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because Fourth Circuit Unpublished Opinion in this
Case is in Direct Conflict with the U.S. Fourth Circuit
Unpublished Opinion Entered on March 3. 3015
Regarding Respondent Judge Paul W. Grimm’s
LETTER ORDER Entered on December 3, 2014 for
the proposed imposition of pre-filing injunction against
Petitioner.
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because Fourth Circuit Unpublished Opinion in this
Case is in direct conflict with the U.S. Fourth Circuit
Unpublished Opinion Entered on March 3. 3015 and
that Respondent Judge Paul W. Grimm’s Failure to

11

Adhere to Fourth Circuit Unpublished Opinion Entered
on March 3. 3015 negates Fourth Circuit Local Rules
and Internal Operating Procedures Rule 41.1 which
provide hereunder as follows:
41.1. Issuance of the Mandate:
On the date of issuance of the mandate, the Clerk
of the Court will issue written notice to the
parties and the clerk of the lower court that the
judgment of the Court of Appeals takes effect
that day. The trial court record will be returned
to the clerk of that court once the mandate has
issued.
Petitioner asserts that on November 13, 2013
Petitioner filed a Civil Action at the U.S. District
Court for the District of Maryland against M & M
Mortgage Services, Inc.; Juan Gonzalez; and Mortgage
Specialist, Inc., because M & M Mortgage Services, Inc.,
Deliberately and Willfully Destroyed those Conduits
Pipes Inside Petitioner’s House by using Unconven­
tional Chemicals in their Unsolicited Winterization
Activities that M and M Mortgage Services Inc., per­
formed inside Petitioner’s Private House at 2005
Stratton Drive Potomac, Maryland 20854 and the
Civil Case was designed as Edokobi v. M & M Mortgage
Services, Inc., et al., with Civil Case No. PWG-133707 and the Civil Case was assigned to Respondent
Judge Paul W. Grimm. A true and accurate copy of
Petitioner’s Civil Case Against M & M Mortgage
Services Inc., et al., is herein marked Petitioner’s Ex­
hibit Number 8.
Petitioner asserts that Plaintiff has spent wellover Thirty-two ($32.000.00) in the repairs of those
Conduit Pipes that, M and M Mortgage Services Inc.,

12

deliberately and willfully destroyed inside Petitioner’s
house by using Unconventional Chemicals in their
Unsolicited Winterization Activities that M and M
Mortgage Services Inc., performed inside Petitioner’s
Private House at 2005 Stratton Drive Potomac,
Maryland 20854
Petitioner asserts that, after a Protracted Legal
Action between Petitioner and Litton Loan Servicing
LP that went to the United States Supreme Court
that; Petitioner and Litton Loan Servicing LP Made
Peace and Petitioner Accepted Litton Loan Servicing
LP’s Offer for the Short Sale of Petitioner’s House
and that Petitioner agreed with Litton Loan.
Petitioner Provides Petitioner’s Certiorari with
Conference of September 30, 2013 in the United States
Supreme Court Reference to Petitioner’s Certiorari
Denied No. 12-1500, Emmanuel Edokobi v. Litton
Loan Servicing, LP from the United States Court of
Appeals for the Fourth Circuit on October 7, 2013.
Petitioner asserts that; Petitioner filed the Civil
Action against M & M Mortgage Services, Inc.; Juan
Gonzalez and Mortgage Specialist, Inc., Because; M
and M Mortgage Services Inc., Deliberately and Will­
fully destroyed the Conduits Pipes in Petitioner’s
House by using Unconventional Chemicals in their
Unsolicited Winterization Activities that M and M
Mortgage Services Inc., performed inside Plaintiffs
Private House at 2005 Stratton Drive Potomac,
Maryland 20854.
Petitioner asserts that Petitioner’s House was
on the Market for Short Sale, and that; Petitioner
went to work and upon returning from work that; M
and M Mortgage Services Inc., entered Petitioner’s

13
house to perform the Unsolicited Winterization
Activities.
Petitioner asserts that, M and M Mortgage
Services Inc., after performing the Unsolicited Winter­
ization Activities that; M and M Mortgage Services
Inc., lock Petitioner’s House with different locks
wherefore Petitioner was not able to enter Petitioner’s
house after returning from work.
Petitioner asserts that M and M Mortgage
Services Inc., did not provide documents on the Winter­
ization Activities that M and M Mortgage Services
Inc., performed inside Petitioner’s house, and that; M
and M Mortgage Services Inc., did not leave their
contact information.
Petitioner asserts that, Petitioner called Litton
Loan Servicing LP who was Petitioner’s Loan Servicer
to obtain information on the Winterization, so that;
Petitioner could provide the Winterization documents
to the Would-Be-Buyers of Petitioner’s house which
was about Twenty-six (26) days in the Market for the
Short Sale as Agreed with Litton Loan.
Petitioner asserts that Litton Loan Servicing LP
Informed Petitioner that; Litton Loan Servicing LP
did not order for the Winterization of the inside of
Petitioner’s house.
Petitioner asserts that attorneys for M & M
Mortgage Services, Inc.; Juan Gonzalez and Mortgage
Specialist, Inc., filed Motion for Sanction against
Petitioner and that Respondent Paul W. Grimm
Granted Motion for Sanction against Petitioner, after
Respondent Paul W. Grimm dismissed Petitioner’s
Civil Action with prejudice. A true and accurate copy
of Motion for Sanction filed by Attorneys for M & M

14
Mortgage Services Inc., is herein Marked Petitioner’s
Exhibit Number 9.
Petitioner asserts that Petitioner filed an Oppo­
sition Motion Opposing Motion for Sanction filed by
attorneys for M & M Mortgage Services Inc., and,
Petitioner by his Opposition Motion enumerated all
those damages that M & M Mortgage Services Inc.,
caused inside Petitioner’s house because; M and M
Mortgage Services Inc., Deliberately and Willfully
Destroyed the Conduits Pipes in Petitioner’s House
by using Unconventional Chemicals in their Unsolicited
Winterization Activities that M and M Mortgage
Services Inc., performed inside Petitioner’s Private
House at 2005 Stratton Drive Potomac, Maryland
20854. A true and accurate copy of Petitioner’s Opposi­
tion Motion Opposing Motion for Sanction filed by
attorneys for M& MMortgage Services Inc., is herein
Marked Petitioner’s Exhibit Number 10.
Petitioner asserts that, Petitioner’s Civil Case
against M & M Mortgage Services Inc., Civil Case
8:13-cv-03707-PWG was decided by the United States
Court of Appeals for the Fourth Circuit Appeal No.
14-2204 and the Fourth Circuit Unpublished Opinion
was Entered on March 3. 3015. A true and accurate
copy of Unpublished Opinion of the United States
Court of Appeals for the Fourth Circuit No. 14-2204
filed on March 19, 2015 is herein Marked Petitioner’s
Exhibit Number 11.
Petitioner asserts that, a part of the Unpublished
Opinion of the Fourth Circuit with Appeal No. 142204 provides that, prefiling injunction determination
remains pending in the District Court, a part of the
Unpublished Opinion provides hereunder as follows:

15

Although the prefiling injunction determination
remains pending in the district court, it appears
that the district court has completed its Con­
sideration of the merits of this case based on its
dismissal of Edokobi’s claims. See Ray Haluch
Gravel Co. v. Cent Pension Fund of the Inti Union
of Operating Eng’rs & Participating Emp’rs, 134
S.Ct. 773, 779 (2014) (holding pending motion
for attorney’s fees collateral to merits for finality
purposes). We therefore conclude that the district
court’s order dismissing Edokobi’s complaint as
barred by res judicata is final and appealable.
{Per Curiam). {See Petitioner’s Exhibit Number ll).

16

REASONS FOR GRANTING THE PETITION
There are almost eight compelling reasons for
review of the Fourth Circuit Unpublished Opinion in
this case, because Fourth Circuit Unpublished Opinion
in this case is in direct conflict with Fourth Circuit
Unpublished Opinion Entered On March 3. 3015
regarding Respondent Judge Paul W. Grimm’s
LETTER ORDER Entered on December 3, 2014 for
the proposed imposition of pre-filing injunction against
Petitioner. (-See Petitioner’s Exhibit Nos., 1, 7 and ll).
I.

The Petition for Writ of Certiorari Should Be
Granted Because This Case Is in Conflict With
the U.S. Fourth Circuit Unpublished Opinion
Entered on March 3, 3015 Regarding Res­
pondent Judge Paul W. Grimm’s Letter Order
Entered on December 3, 2014 for the
Proposed Imposition of Pre-Filing Injunction
Against Petitioner

Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because Fourth Circuit Unpublished Opinion in this
case is in direct conflict with the U.S. Fourth Circuit
Unpublished Opinion Entered On March 3. 3015 and
that Respondent Judge Paul W. Grimm’s Failure to
Adhere to Fourth Circuit Unpublished Opinion Entered
on March 3. 3015 Negates Fourth Circuit Local Rules
and Internal Operating Procedures Rule 41.1 which
provide hereunder as follows:

17
41.1. Issuance of the Mandate:
On the date of issuance of the mandate, the
Clerk of the Court will issue written notice
to the parties and the clerk of the lower
court that the judgment of the Court of
Appeals takes effect that day. The trial court
record will be returned to the clerk of that
court once the mandate has issued.
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because Respondent Judge Paul W. Grimm is in Dis­
obedience to Rule 41; Mandate of the Fourth Circuit
Unpublished Opinion Entered on March 3, 2015 by
Respondent Judge Paul W. Grimm’s Refusal to
Complete His LETTER ORDER ECF No. 25 for Civil
Case No. 8:13-cv-03707-PWG; Edokobi v. M & M
Mortgage Services Inc., Juan Gonzalez; Mortgage
Specialist, Inc., and that; Respondent Judge Grimm;
Is Legally Required to Complete His LETTER
ORDER ECF No. 25 Entered on December 3, 2014;
Pursuance to Fourth Circuit’s Mandate for Appeal
No. 14-2204: Entered on Entered on March 3, 3015
which provides hereunder in pertinent part:
2 Although the prefiling injunction determination
remains pending in the district court, it appears
that the district court has completed its con­
sideration of the merits of this case based on its
dismissal of Edokobi’s claims. See Ray Haluch
Gravel Co. v. Cent. Pension Fund of the Inti Union
of Operating Eng’rs & Participating Emp’rs, 134
S.Ct. 773, 779 (2014) (holding pending motion
for attorney’s fees collateral to merits for finality
purposes). We therefore conclude that the dis­
trict court’s order dismissing Edokobi’s complaint

18

as barred by res judicata is final and appealable.
(See Unpublished United States Court ofAppeals
for the Fourth Circuit Mandate on Case No. 142204 (Per Curiam). (Petitioner’s Exhibit No. ll).
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because Respondent Judge Paul W. Grimm is in
Absolute Disobedience to Rule 41; Mandate of the
Fourth Circuit Unpublished Opinion Entered on
March 3, 2015 by Respondent Judge Paul W. Grimm’s
Refusal to Complete His LETTER ORDER ECF No,
25 for Civil Case No. 8:13-cv-03707-PWG; Appeal No.
14-2204; Edokobi v. M & MMortgage Services Inc.,
Juan Gonzalez; Mortgage Specialist, Inc., Entered on
December 3, 2014; and that, Respondent Judge Paul
W. Grimm’s LETTER ORDER Still Remains Pending
in the U.S District Court” and Respondent Judge
Paul Grimm has not made any attempt to complete
the prefiling injunction order against Petitioner and
it is Now Over Five (5) Years. (See Petitioner’s Ex­
hibit Nos. 1 and ll).
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because Respondent Judge Paul W. Grimm continues
to disregard the Rule 41; Mandate of the Fourth
Circuit Unpublished Opinion Entered on March 3,
2015; by Honorable Judge Paul W. Grimm’s Refusal
to Complete His LETTER ORDER ECF No. 25 for
Civil Case No. 8:13-cv-03707-PWG; Appeal No. 142204; Edokobi v. M & M Mortgage Services Inc.,
Juan Gonzalez; Mortgage Specialist, Inc., Entered on
December 3, 2014; and that; Respondent Judge Paul
W. Grimm has not provided any reason or reasons
for his Refusal to complete his LETTER ORDER

19
ECF No. 25: Appeal No. 14-2204; Edokobi v. M & M
Mortgage Services Inc., Juan Gonzalez; Mortgage
Specialist, Inc., for Civil Case No. 8:13-cv-03707-PWG
Entered on December 3, 2014; And It Has Lasted Five
(5) Years.
n.

The Petition for Writ of Certiorari Should Be
Granted Because This Case Contains a
Violation of Fourteenth Amendment Due
Process Clause and That 4th Circuit Dismissal
of This Case Increasingly Undermines This
Court’s Due Process Clause’ Jurisprudence on
Fourteenth Amendment Due Process Clause

Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because Respondent Judge Paul W. Grimm by his
Failure to Completed His A LETTER ORDER of
Imposition of Pre-Filing Injunction Against Petitioner
“LETTER ORDER” Entered on December 3, 2014 for
Civil Action RE: Edokobi v. M & MMortgage Services
Inc., (ECF No. 15) of the Civil Case 8:13-cv-03707-PWG
Fourth Circuit Appeal No. 14-2204 Violates Petitioner’s
protected due process rights as guaranteed in the
14th Amendment of the United States Constitution.
Petitioner asserts that Petition for Writ of Certi­
orari becomes crucial and should be granted because
a Judgment rendered in violation of due process is
void in the rendering state and is not entitled to full
faith and credit elsewhere. See Pennoyer v. Neff, 95
U.S. 714, 732-733 (1878), and Mullane v. Central
Hanover Trust Co., 339 U.S. 306, 313-314 (1950). In
the present case, it is not contended that Respondent
Judge Paul W. Grimm’s Failure to Completed His A
LETTER ORDER of Imposition of Pre-Filing Iniunc-

20

tion Against Petitioner “LETTER ORDER” Entered on
December 3, 2014 for Civil Action Re: Edokobi v. M &
M Mortgage Services Inc., (ECF No. 15) of the Civil
Case 8:13-cv-03707-PWG Fourth Circuit Appeal No.
14-2204 Violates Petitioner’s protected due process
rights as guaranteed in the 14th Amendment of the
United States Constitution.
Petitioner asserts that Petition for Writ of Certi­
orari becomes crucial and should be granted because
Respondent Judge Paul W. Grimm is in violation
of Petitioner’s due process pursuance to the Civil
Rights Act of 1871, as amended, 42 U.S.C. § 1983, by
Respondent Judge Paul W. Grimm’s Refusal to
Complete His LETTER ORDER of Imposition of PreFiling Injunction Against Petitioner “LETTER ORDER”
Entered on December 3, 2014 for Civil Action Re:
Edokobi v. M & MMortgage Services Inc., (ECF No.
15) of the Civil Case 8:13-cv-03707-PWG with the
United States Court of Appeals for the Fourth Circuit
Appeal No. 14-2204 and that Respondent Judge Paul
W. Grimm’s LETTER ORDER Entered on December
3, 2014 is Pending; And It Has Lasted Five (5) Years.
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because Respondent Judge Paul W. Grimm is in
violation of Petitioner’s due process pursuance to The
Civil Rights Act of 1871, as amended, 42 U.S.C.
§ 1983, by Respondent Judge Paul W. Grimm’s Refusal
To Complete His LETTER ORDER of Imposition of
Pre-Filing Injunction Against Petitioner “LETTER
ORDER” Entered on December 3, 2014, Petitioner
asserts that the touchstone of due process is protec­
tion of individual against arbitrary action of govern­
ment. See Wolff v. McDonnell (1974) 418 U.S. 539,

21
L.Ed.2d 935, 94 S.Ct. 2963. Due process of law, within
the meaning of Fourteenth Amendment is secured if
laws operate on all alike, and do not subject individual
to arbitrary exercise of powers of government. See
Missouri P. R. Co. v. Mackey (1888) 127 U.S. 205, 32
L.Ed 107, 8 S.Ct. 1161. See also Minneapolis & S.L.R.
Co. v. Herrick (1888), 127 U.S. 210, 8 S.Ct. 1176;
keeper v. Texas (1891) 139 U.S. 462, 11 S.Ct. 577;
Giozza v. Tiernan (1893) 148 U.S. 657, 13 S.Ct.721;
and Duncan v. Missouri (1894) 152 U.S. 377, 14 S.Ct.
570.

III. The Petition for Writ of Certiorari Should
Be Granted Because This Case Contains a
Violation of Fourteenth Amendment Due
Process Clause Violation of (42 U.S.C. § 1983)
by Acting Under Color of Law to Deprive
Petitioner’s Eighth Amendment Clause of
Protections.
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because Respondent Judge Paul W. Grimm violates
the Fourteenth Amendment Due Process Clause
violation of (42 U.S.C. § 1983) by acting under color of
law to deprive Plaintiffs Eighth Amendment Clause
of protections of being subject to cruel and unusual
punishments by Respondent Judge Paul W. Grimm’s
refusal to completed his a LETTER ORDER of
imposition of pre-filing injunction against Petitioner
“LETTER ORDER” entered on December 3, 2014 for
civil action re: Edokobi v. M & MMortgage Services
Inc., (ECF no. 15) of the civil case 8:13-cv-03707-PWG
Fourth Circuit Appeal No. 14-2204 “LETTER ORDER”
is pending; and it has lasted five (5) years. (Petitioner’s
Exhibit nos. 1 and ll)

22

Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because Respondent Judge Paul W. Grimm violates
the Fourteenth Amendment Due Process Clause
violation of (42 U.S.C. § 1983) by acting under color
of law to deprive Plaintiffs Eighth Amendment Clause
of protections and that Respondent Judge Paul W.
Grimm’s cruel and unusual punishments are melted
upon Petitioner by Respondent Judge Paul W. Grimm’s
refusal to completed his a LETTER ORDER of impo­
sition of pre-filing injunction against Petitioner
“LETTER ORDER” entered on December 3, 2014 for
civil action re: Edokobi v. M & MMortgage Services
Inc., (ECF no. 15) of the civil case 8:13-cv-03707PWG Fourth Circuit Appeal No. 14-2204 “LETTER
ORDER” is pending; and it has lasted five (5) years.
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because Respondent Judge Paul W. Grimm violates
the Fourteenth Amendment Due Process Clause
violation of (42 U.S.C. § 1983) by acting under color of
law to deprive Plaintiffs Eighth Amendment Clause
of protections by inflicting cruel and unusual punish­
ments upon Petitioner by Respondent Judge Paul W.
Grimm’s refusal to completed his a LETTER ORDER of
imposition of pre-filing injunction against Petitioner
and that, Respondent Judge Paul W. Grimm intention­
ally did not want to complete his LETTER ORDER
as punishments upon Petitioner whom Respondent
Judge Paul W. Grimm considers as a troublemaker
who must be controlled.
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because Respondent Judge Paul W. Grimm violates the

23

Fourteenth Amendment Due Process Clause violation
of (42 U.S.C. § 1983) by acting under color of law to
deprive Plaintiffs Eighth Amendment Clause of pro­
tections by inflicting cruel and unusual punishments
upon Petitioner by Respondent Judge Paul W. Grimm’s
refusal to issue his final order on the prefiling injunc­
tion against Petitioner pending in the district court
since December 12, 2014 for civil case number case
8:13-cv-03707-PWG is designed to punish Petitioner
severely.
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because Respondent Judge Paid W. Grimm violates the
Fourteenth Amendment Due Process Clause violation
of (42 U.S.C. § 1983) by acting under color of law to
deprive Plaintiffs Eighth Amendment Clause of protec­
tions by inflicting cruel and unusual punishments
upon Petitioner because, federal Defendants in their
motion to consolidate Petitioner’s actions cited Respond­
ent Judge Paul W. Grimm’s prefiling injunction against
Petitioner.
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because Respondent Judge Paul W. Grimm violates the
Fourteenth Amendment Due Process Clause violation
of (42 U.S.C. § 1983) by acting under color of law to
deprive Plaintiffs Eighth Amendment Clause of protec­
tions by inflicting cruel and unusual punishments
upon Petitioner because. Defendants in the Petition­
er’s civil action against Mondo International LUC. Et
AL, cited Respondent Judge Paul W. Grimm’s nrefiling
injunction against Petitioner’s in their motions.
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted

24

because Respondent Judge Paul W. Grimm violates the
Fourteenth Amendment Due Process Clause violation
of (42 U.S.C. § 1983) by acting under color of law to
deprive Plaintiffs Eighth Amendment Clause of
protections by inflicting cruel and unusual punish­
ments upon Petitioner because, Defendant in the Peti­
tioner’s civil action against Toyota Motor Credit
Corporation Et Al. cited Respondent Judge Paul W.
Grimm’s prefiling injunction against Petitioner in his
motion.
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because Respondent Judge Paul W. Grimm violates the
Fourteenth Amendment Due Process Clause violation
of (42 U.S.C. § 1983) by acting under color of law to
deprive Plaintiffs Eighth Amendment Clause of protec­
tions by inflicting cruel and unusual punishments upon
Petitioner because, Petitioner is suffering and will
continue to suffer irreparable harm because of Respond­
ent Judge Paul W. Grimm’s action of refusal to issue
the final court order on the prefiling injunction against
Petitioner pending in the district court since December
12, 2014 for civil case number case 8:13-cv-03707-PWG
which is a blatant violation of Petitioner’s due process.
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because Respondent Judge Paul W. Grimm violates
Eighth Amendment of Cruel and Unusual Punishments
against Petitioner and that, the Civil Rights of 14th
Amendments to the United States Constitution
protects Petitioner from Respondent Judge Paul W.
Grimm’s cruel and unusual punishments. Petitioner
asserts that Respondent Judge Paul W. Grimm’s
refusal to completed his a LETTER ORDER of impo-

25
sition of pre-filing injunction against Petitioner entered
on December 3, 2014 for civil action re: Edokobi v. M
& M Mortgage Services Inc., (ECF no. 15) of the civil
case 8:13-cv-03707-PWG Fourth Circuit Appeal No. 142204 is a grand design by Respondent Judge Paul W.
Grimm to punish upon Petitioner whom Respondent
Judge Paul W. Grimm considers as a troublemaker
who must be controlled by every available tool of the
law.
IV. The Petition for Writ of Certiorari Should Be
Granted Because This Case Contains a
Violation of Fourteenth Amendment Due
Process Clause Violation of (42 U.S.C. § 1983)
By Acting Under Color of Law to Deprive
Petitioner’s Equal Protection Clause
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because Respondent Judge Paul W. Grimm violates the
Fourteenth Amendment due process clause violation
of (42 U.S.C. § 1983) by acting under color of law to
deprive Petitioner’s Equal Protection Clause by Res­
pondent Judge Paul W. Grimm’s unjustifiable dis­
criminating application of law, by Respondent Judge
Paul W. Grimm’s Refusal to Completed His A LETTER
ORDER of Imposition of Pre-Filing Injunction Against
Petitioner Entered on December 3, 2014 for Civil
Action RE: Edokobi v. M & M Mortgage Services
Inc., (ECF No. 15) of the Civil Case 8:13-cv-03707-PWG
Fourth Circuit Appeal No. 14-2204 and that Respond­
ent Judge Paid W. Grimm’s LETTER ORDER Entered
on December 3, 2014 is Pending; And It Has Lasted
Five (5) Years.

26

Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because Respondent Judge Paul W. Grimm violates the
Fourteenth Amendment due process clause violation
of (42 U.S.C. § 1983) by acting under color of law to
deprive Petitioner’s Equal Protection Clause by Res­
pondent Judge Paul W. Grimm’s unjustifiable discrim­
inating application of law by Respondent Judge Paul
W. Grimm’s Refusal to Completed His A LETTER
ORDER of Imposition of Pre-Filing Injunction Against
Petitioner Entered on December 3, 2014 for Civil
Action Re: Edokobi v. M & M Mortgage Services Inc.,
(ECF No. 15) of the Civil Case 8:13-cv-03707-PWG
Fourth Circuit Appeal No. 14-2204 and that there is
No Other Respondent Judge Paul W. Grimm’s Pending
LETTER ORDER except Respondent Judge Paul W.
Grimm’s LETTER ORDER Entered on December 3,
2014 for the Imposition of Pre-Filing Injunction Against
Petitioner.
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because Respondent Judge Paul W. Grimm violates the
Fourteenth Amendment due process clause violation
of (42 U.S.C. § 1983) by acting under color of law to
deprive Petitioner’s equal protection clause by Respond­
ent Judge Paul W. Grimm’s unjustifiable discriminating
application of law and that Respondent Judge Paul W.
Grimm has completed all those LETTER ORDERs
that Respondent Judge Paul W. Grimm has entered
in different cases assigned to him with the exception
to the Respondent Judge Paul W. Grimm’s LETTER
ORDER of Imposition of Pre-Filing Injunction Against
Petitioner Entered on December 3, 2014 for Civil
Action RE: Edokobi v. M & MMortgage Services Inc.,

27

(ECF No. 15) of the Civil Case 8:13-cv-03707-PWG
Fourth Circuit Appeal No. 14-2204, and that Respond­
ent Judge Paul W. Grimm’s LETTER ORDER Entered
on December 3, 2014 is pending; And It Has Lasted
Five (5) Years.
V.

The Petition for Writ of Certiorari Should Be
Granted Because This Case Contains an Abuse
of Discretion in Respondent Judge Paul W.
Grimm’s Refusal to Complete His Letter Order
Entered on December 3,2014

Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because this case contains an abuse of discretion in
Respondent Judge Paul W. Grimm’s Refusal to Com­
plete His LETTER ORDER Entered On December 3,
2014 For Appeal No. 14-2204; Of Civil Case No. 8:13cv-03707-PWG; Edokobi v. M & MMortgage Services
Inc., Juan Gonzalez; Mortgage Specialist, Inc.
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because there is no contest in this case that Respondent
Judge Paul W. Grimm exhibited abused of discretion
in His Refusal to Complete His LETTER ORDER (ECF
No. 25): For Appeal No. 14-2204; Of Civil Case No. 8:13cv-03707-PWG; Edokobi v. M & MMortgage Services
Inc., Juan Gonzalez; Mortgage Specialist, Inc. Entered
on December 3, 2014 it is still pending and It Has
Lasted Five (5) Years.
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because there is no contest in this case that Respondent
Judge Paul W. Grimm exhibited abuse of discretion in
His Refusal to Complete His LETTER ORDER (ECF

28

No. 25) for Appeal No. 14-2204; of Civil Case No. 8:13cv-03707-PWG; Edokobi v. M & MMortgage Services
Inc., Juan Gonzalez; Mortgage Specialist, Inc. Entered
on December 3, 2014 See Pashby v. Delia, 709 F.3d 307,
319 (4th Cir.2013); Koon v. United States, 518 U.S.
81, 100 (1996) (explaining that a court “by definition
abuses its discretion when it makes an error of law;
See Alvarez Lagos v. Barr, 927 F.3d 236, 255 (4th
Cir. 2019).
Petitioner asserts that Petition for Writ of Certi­
orari becomes crucial and should be granted because
there is no contest in this case that Respondent Judge
Paul W. Grimm exhibited abuse of discretion in His
Refusal to Complete His LETTER ORDER: and that
Respondent Judge Paul W. Grimm did not provide
his reason or reasons for his Refusal to Complete His
LETTER ORDER for Appeal No. 14-2204; of Civil Case
No. 8:13-cv-03707-PWG; Edokobi v. M & MMortgage
Services Inc., Juan Gonzalez; Mortgage Specialist, Inc.
Entered on December 3, 2014; And It Has Lasted Five
(5) Years. See Babkin v. Oregon Health Sciences Univ.,
350 F 3d 967, 977 (9th Cir. 2003); Gotthardt v. Natl
R.R. Passenger Corp., 191 F.3d 1148, 1156 (9th Cir.
1999); Cancellier v. Federated Dep’t Stores, 672 F.2d
1312, 1319 (9th Cir. 1982); United States v. Washing­
ton, 157 F.3d 630, 642 (9th Cir. 1998); and Inti Jensen,
Inc. v. Microsound U.S.A., Inc., 4 F.3d 819, 822 (9th
Cir. 1993) (internal quotations and citation omitted).
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because there is no contest in this case that Respondent
Judge Paul W. Grimm exhibited abuse of discretion
in His Refusal to Complete His LETTER ORDER for
Appeal No. 14-2204; Of Civil Case No. 8:13-cv-03707-

29
PWG; Edokobi v. M& MMortgage Services Inc., Juan
Gonzalez; Mortgage Specialist, Inc. Entered on Decem­
ber 3, 2014. See FusarO v. Cogan, 930 F.3d 241, 248
(4th Cir, 2019) (explaining abuse of discretion stan­
dard); cf. Henderson ex rel. NLRB v. Bluefield Hosp.
Co., 902 F.3d 432, 439 (4th Cir. 2018); Centro Tepeyac
v. Montgomery Cty., 722 F.3d 184, 188 (4th Cir. 2013)
(en banc); and Quince Orchard Valley Citizens Ass’n
v. Hodel, 872 F.2d 75, 78 (4th Cir. 1989).
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because there is no contest in this case that Respondent
Judge Paul W. Grimm exhibited abuse of discretion
in Refusal to Complete His LETTER ORDER for
Appeal No. 14-2204; of Civil Case No. 8:13-cv-03707PWG; Edokobi v. M& MMortgage Services Inc., Juan
Gonzalez; Mortgage Specialist, Inc. Entered on Decem­
ber 3, 2014; and appellant’s arguments are supported
by these cases mentioned herein as follows; Hobby
Lobby Stores, Inc. v. Sebelius, 723 F.3d 1114, 1145 &
n.21 (10th Cir. 2013) (en banc). We then evaluate the
court’s “ultimate decision” to deny injunctive relief
for abuse of discretion; Gonzales v. O Centro Espirita
Beneficente Uniao do Vegetal, 546 U.S. 418, 428 (2006);
and Booth v. Wal-Mart Stores, Inc., 201 F.3d 335 (4th
Cir. 2000) when deciding whether the administrator’s
denial of coverage was an abuse of discretion.
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because there is no contest in this case that Respondent
Judge Paul W. Grimm exhibited abuse of discretion
in Refusal to Complete His LETTER ORDER ECF
No. 25; for Appeal No. 14-2204; Civil Case No. 8:13cv-03707-PWG; Edokobi v. M & MMortgage Services

30

Inc., Juan Gonzalez; Mortgage Specialist, Inc. Entered
on December 3, 2014; and Honorable Judge Paul W.
Grimm’s Refusal to Complete His LETTER ORDER.
SeeFusaro v. Cogan, 930 F.3d 241, 246 (4th Cir. 2019);
Centro Tepeyac v. Montgomery Cty., 722 F.3d 184,
188 (4th Cir. 2013) (en banc) and Quince Orchard
Valley Citizens Ass’n v. Hodel, 872 F.2d 75, 78 (4th
Cir. 1989).
VI. The Petition for Writ of Certiorari Should Be
Granted Because This Case Involves Judicial
Disability Act of 1980, 28 U.S.C. §§ 351-364
(“Act”) Complaint Against Respondent Judge

Paul W. Grimm
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because this case involves Judicial Disability Act of
1980, 28 U.S.C. §§ 351-364 (“ACT”) Complaint against
Respondent Judge Paul W. Grimm in that Respondent
Judge Paul W. Grimm was judicially disabled to hear
Civil Case 8:19-cv-00248-PWG; Appeal No. 20-1243;
Edokobi v. Toyota Motor Credit Corporation et al;
pursuant to Judicial Disability Act of 1980, 28 U.S.C.
§§ 351-364 (“Act”), and pursuant to rules for JudicialConduct and Judicial-Disability proceedings, 248 F.R.D.
674 (2008).
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because Respondent Judge Paul W. Grimm was
judicially disabled to hear Civil Case 8:19-cv-00248PWG; Appeal; No. 20-1243; Edokobi v. Toyota Motor
Credit Corporation et al, and Civil Case No. 8:19-CV01071-PWG; Appeal No. 20-1796 Emmanuel Edokobi
v. SunTrust Bank, et al, due to Petitioner’s civil action

31
against Respondent Judge Paul W. Grimm styled:
Emmanuel Edokobi v. Paul Grimm 8:19-cv-00905GJH; Appeal No.. No. 20-1271, which is the subject of
this Certiorari, and that Petitioner’s Motion To Remove
Edokobi v. Toyota Motor Credit Corporation et al\
And Civil Case No. 8:19-cv-01071-PWG; Appeal No.
20-1796 Emmanuel Edokobi v. SunTrust Bank, et al.
from Respondent Paul W. Grimm is part of this
Certiorari. {See Petitioner’s Exhibit Number 6).
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because Respondent Judge Paul W. Grimm was
judicially disabled to Civil Case 8:19-cv-00248-PWG;
Appeal; No. 20-1243; Edokobi v. Toyota Motor Credit
Corporation et al, and Civil Case No. 8:19-CV-01071PWG; Appeal No. 20-1796 Emmanuel Edokobi v.
SunTrust Bank, et al, because Respondent Judge Paul
W. Grimm could not in good conscience provide an
unbiased decision in the Civil Case No. 8:19-cv-00248PWG; Edokobi v. Toyota Motor Credit Corporation et
al and Civil Case No. 8:19-CV-01071-PWG; Appeal
No. 20-1796 Emmanuel Edokobi v. SunTrust Bank,
et al., due to Petitioner’s Civil Action against Respond­
ent Judge Paul W. Grimm Civil Case No. 8:19-cv-00905GJH; Emmanuel Edokobi v. Paul Grimm which is
subject of this Certiorari a copy of Petitioner’s Motion
to Remove those Civil Actions From Respondent Judge
Paul W. Grimm is part of this Certiorari. {See
Petitioner’s Exhibit Number 6).
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because Respondent Judge Paul W. Grimm was judi­
cially disabled to hear Civil Case 8:19-cv-00248PWG; Appeal; No. 20-1243; Edokobi v. Toyota Motor

32

Credit Corporation et al, and Civil Case No. 8:19-CV01071-PWG; Appeal No. 20-1796 Emmanuel Edokobi
v. SunTrust Bank, et al, because Respondent Judge
Paul W. Grimm was biased towards Petitioner as a
result of Petitioner’s Civil Action against Respondent
Judge Paul W. Grimm With Civil Case No. 8:19-cv00905-GJH; Emmanuel Edokobi v. Paul Grimm which
is the subject of this Certiorari a copy of Petitioner’s
Motion to Remove Those Civil Actions from Respondent
Judge Paul W. Grimm is part of this Certiorari. (See
Petitioner’s Exhibit Number 6).
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should' be granted
because Respondent Judge Paul W. Grimm was
judicially disabled to hear Civil Case 8:19-cv-00248PWG; Appeal; No. 20-1243; Edokobi v. Toyota Motor
Credit Corporation et al, and Civil Case No. 8:19-CV01071-PWG; Appeal No. 20-1796 Emmanuel Edokobi
v. SunTrust Bank, et al, because Respondent Judge
Paul W. Grimm; could not in good conscience provide
an unbiased decision in the Civil Case No. 8:19-cv00248-PWG; Edokobi v. Toyota Motor Credit Corpora­
tion et al, And Civil Case No. 8:19-CV-01071-PWG;
Appeal No. 20-1796 Emmanuel Edokobi v. SunTrust
Bank, et al; due to Petitioner’s Civil Action against
Appeal No. 20-1271; Emmanuel Edokobi v. Paul
Grimm, which is subject of this Certiorari and a copy
of Petitioner’s Motion to Remove Those Civil Actions
from Respondent Judge Paul W. Grimm is part of
this Certiorari. (See Petitioner’s Exhibit Number 6).

33

VII. The Petition for Writ of Certiorari Should Be
Granted Because This Case Involves Juris­
diction Issues
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because this case involves jurisdiction issues in that,
Respondent Judge Paul W. Grimm claims that, the
United States District Court for the District of
Maryland Lacks Jurisdiction to hear this Civil Action.
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because this case involves jurisdiction issues in that,
The United States District Court for the District of
Maryland Lacks Jurisdiction to Hear this Civil Action
and on appeal Petitioner argues that, Respondent
Judge Grimm’s assertion of the U.S. District Court
lacks jurisdiction; Is Not Admissible in this civil case;
because, Respondent Judge Grimm Is Legally Required
to Complete His LETTER ORDER (ECF No. 25): for
Appeal No. 14-2204; Civil Case No. 8:13-cv-03707PWG; Edokobi v. M & M Mortgage Services Inc.,
Juan Gonzalez; Mortgage Specialist, Inc. Entered on
December 3, 2014; And It Has Lasted Five (5) Years:
and that; Respondent Judge Paul W. Grimm did not
provide his reason or reasons for his Refusal to His
LETTER ORDER ECF No. 25; Entered on December
3, 2014.
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because this case involves jurisdiction issues in that,
Respondent Judge Paul W. Grimm claims that, the
United States District Court for the District of
Maryland lacks jurisdiction to hear this Civil Action
and on appeal Petitioner argues that Respondent Judge

34
Grimm’s assertion of the court lacks jurisdiction; Is
Not Admissible in this civil case; because, Respondent
Judge Grimm had issued the LETTER ORDER (ECF
No. 25); and that; Respondent Judge Grimm should
complete his LETTER ORDER (ECF No. 25); and
that Respondent Judge Grimm does not need the
help of the court to complete his LETTER ORDER
(ECF No. 25): Entered on December 3, 2014; And It
Has Lasted Five (5) Years.
VIII.The Petition for Writ of Certiorari Should Be
Granted Because This Case Involves Judicial

Immunity Issues
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because this case involves judicial immunity issues
in that, Respondent Judge Paul W. Grimm claims of
judicial immunity and on appeal Petitioner argues
that Respondent Judge Paul W. Grimm claims of
judicial immunity is not admissible in this civil case;
because, Respondent Judge Grimm is legally respon­
sible to complete his LETTER ORDER ECF No. 25: for
Appeal No. 14-2204; Civil Case No. 8:13-cv-03707-PWG;
Edokobi v. M& MMortgage Services Inc., Juan Gon­
zalez; Mortgage Specialist, Inc. Entered on December 3,
2014; And It Has Lasted Five (5) Years: and that;
Respondent Judge Paul W. Grimm did not provide his
reason or reasons for his Refusal to His LETTER
ORDER (ECF No. 25): Entered on December 3, 2014;
And It Has Lasted Five (5) Years.
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because this case involves judicial immunity issues
in that, Respondent Judge Paul W. Grimm claims of

35

judicial immunity and on appeal Petitioner argues that
Respondent Judge Paul W. Grimm claims of judicial
immunity is not admissible in this civil case; because,
Judicial Immunity is not proper defense to protect
Honorable Judge Grimm from completing His LETTER
ORDER (ECF No. 25): for Appeal No. 14-2204; Civil
Case No. 8:13-cv-03707-PWG; Edokobi v. M & M
Mortgage Services Inc., Juan Gonzalez; Mortgage
Specialist, Inc. Entered on December 3, 2014; And It
Has Lasted Five (5) Years.
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because this case involves judicial immunity issues
in that, Respondent Judge Paul W. Grimm claims of
judicial immunity and on appeal Petitioner argues that
Respondent Judge Paul W. Grimm claims of judicial
immunity is not admissible in this civil case; because,
judicial immunity cannot be used to cover Respondent
Judge Grimm’s unwillingness to complete his LETTER
ORDER (ECFNo. 26)-, for Appeal No. 14-2204; Civil
Case No. 8:13-cv-03707-PWG; Edokobi v. M & MMort­
gage Services Inc., Juan Gonzalez; Mortgage Specialist,
Inc. Entered on December 3, 2014; And It Has Lasted
Five (5) Years.
Petitioner asserts that Petition for Writ of
Certiorari becomes crucial and should be granted
because this case involves judicial immunity issues
in that, Respondent Judge Paul W. Grimm claims of
judicial immunity and on appeal Petitioner argues
that Respondent Judge Paul W. Grimm claims of
judicial immunity is not admissible in this civil case;
because, judicial immunity is not available to protect
Honorable Judge Grimm’s Refusal to Complete His
LETTER ORDER ECF No. 25: for Appeal No. 14-

36

2204; Civil Case No. 8:13-cv-03707-PWG; Edokobi v.
M& MMortgage Services Inc., Juan Gonzalez; Mort­
gage Specialist, Inc. Entered on December 3, 2014;
And It Has Lasted Five (5) Years.
Therefore, to bring that circuit in line with this
Court’s jurisprudence and to resolve a direct conflict
between the Fourth Circuit and other Circuits, this
Court should grant the petition for writ of certiorari
and overturn the decision below.
The Fourth Circuit’s Unpublished Per Curiam
Opinion to dismiss Petitioner’s appeal Entered
on February 25, 2021.
The United States District Court Judge
George J. Hazel’s Memorandum Opinion
ruling in granting Judge Paul W. Grimm’s
Motion for Summary Judgment Entered
March 4, 2020.
The United States District Court Judge
George J. Hazel’s Order in denying Petitioner’
Motion for Removal of Judge Grimm Entered
March 4, 2020.

37

CONCLUSION
Petitioner, Emmanuel Edokobi prays that this
Court grants his Writ of Certiorari.
Respectfully submitted,
Emmanuel Edokobi
Petitioner Pro Se
2005 Stratton Drive
Potomac, MD 20854
(301)793-2882
EEDOKOBI@YAHOO.COM

May 21,2021

